No. 19-439
In The

^vcpremt Olnurt of il\e ^xdizh^inits
CTIA-The Wireless Association®,
Petitioner,
V.

The City of Berkeley, California, and Christine Daniel,
City Manager of Berkeley, California, in her official capacity.
Respondents.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the document contains 3,701
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 1,2019.

Adam G. Unikow«ky

